Criminal
I nvestigative
Policy &
Oversight
                          Evaluation of
   Sufficiency of Subpoena Authority within the Department of
       Defense in Support of General Crimes Investigations

Report Number CIPO2001S004                     May 15, 2001




                Office of the Inspector General
                    Department of Defense
  Additional Copies

  To obtain additional copies of this evaluation report, visit the Inspector General,
  DoD, Home Page at: http://www.dodig.osd.mil/dcis/cipo/evals.htm, or contact
  Dr. Charles McDowell, Program Director, at (703) 604-8769 (DSN 664-8769) or
  Ms. Phyllis Brown, Project Manager, at (703) 604-8810 (DSN 664-8810).

  Suggestions for Future Evaluations

  To suggest ideas for or to request future evaluations, contact the Audit Followup
  and Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@dodig.osd.mil; or by writing to
  the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The identity of
  each writer and caller is fully protected.




Acronyms
AFOSI                 Air Force Office of Special Investigations
CIPO                  Criminal Investigative Policy and Oversight
IG                    Inspector General
JA                    Judge Advocate
JAGC                  Judge Advocate General’s Corps
JSC                   Joint Service Committee
MCIO                  Military Criminal Investigative Organization
MCM                   Manual for Courts-Martial
NAPA                  National Academy of Public Administration
NCIS                  Naval Criminal Investigative Service
SJA                   Staff Judge Advocate
UCMJ                  Uniform Code of Military Justice
USACIDC               U.S. Army Criminal Investigation Command
                             Office of the Inspector General, DoD
Report No. CIPO2001S004                                                             May 15, 2001

    (Project No. 9950010J)

        Sufficiency of Subpoena Authority within the Department of
            Defense in Support of General Crimes Investigations

                                      Executive Summary

Introduction. This evaluation was performed to address two matters. First, a report by
the National Academy of Public Administration noted that the Military Criminal
Investigative Organizations (MCIOs)1 lacked direct subpoena authority and
recommended that DoD consider providing approval authority to the Services’ General
Counsels or another appropriate Service official. Second, an April 19, 1999, Air Force
Office of Special Investigations memorandum to the Inspector General, Department of
Defense (IG, DoD), recommended the establishment of subpoena authority for criminal
investigations as an issue for the IG, DoD, Office of Criminal Investigative Policy and
Oversight FY 2000 Project Plan.

Objectives. Our primary objective was to evaluate whether the limitations on the
Services’ authority to issue subpoenas adversely impacts their ability to conduct general
crimes investigations.2 The evaluation focused on the effectiveness of the authorities and
mechanisms currently available to the MCIOs for obtaining documents or other
evidentiary material during the course of their investigations. We also assessed whether
the subpoena authority within the Office of the IG, DoD, adequately supports general
crimes investigations conducted by the MCIOs.

Results. MCIO investigators lack fully effective mechanisms for compelling production
of evidence in general crimes investigations. Results of a survey addressed to MCIO
agents identified a significant number of situations in which a certain mechanism was
needed but was not available. This condition exists because of the Services' limited
authority to issue subpoenas and because the Inspector General does not normally issue
1
 The MCIOs are the U.S. Army Criminal Investigation Command; the Air Force Office of Special
 Investigations; and the Naval Criminal Investigative Service, which services the Navy and the Marine
 Corps. The MCIOs are responsible for investigating most major crime in the Military Departments,
 including general crimes and fraud.
2
 For purposes of this evaluation, the term general crimes includes any felony type offense under the
 Uniform Code of Military Justice (UCMJ) punishable by a dishonorable discharge and 1 year confinement
 or greater. This definition does not include fraud or economic crimes, or purely military offenses (for
 example, desertion). Drug offenses are included in the general crimes category.
subpoenas in general crimes investigations unless the Department of Defense is the
victim. The conclusion of the MCIO agents was further validated through a survey of the
Services’ judge advocates (JAs) with prosecution experience.

As a result of this lack of a fully effective mechanism to compel production of evidence,
some investigations are incomplete and some prosecutions may be precluded. For details
of the evaluation results, see the Finding section of this report.

Summary of Recommendation. We recommend that the General Counsel, Department
of Defense, under the authority of DoD Directive 5500.1, “Preparation and Processing of
Legislation, Executive Orders, Proclamation, and Reports and Comments Thereon,” May
21, 1964, initiate or direct action to establish additional subpoena authority within the
military justice system as supported by this evaluation.

Management Comments. The DoD General Counsel, the Army, Navy, and Air Force
concurred that Military Criminal Investigative Organizations lack effective mechanisms
for compelling production of evidence in general crimes investigations. The Services
also concurred in the recommendation to have the DoD General Counsel initiate or direct
action to establish additional subpoena authority within the military justice system. The
DoD General Counsel, the Air Force Judge Advocate, and the Navy Deputy Assistant
Judge Advocate General (Criminal Law) stated that implementation of any expanded
subpoena authority would be best initiated through a review by the Joint Services
Committee.3 See the Finding section of the report for a discussion of the management
comments and the Management Comments section for a complete text of the comments.




3
    DoD Directive (DoDD) 5500.17, “Role and Responsibilities of the Joint Service Committee (JSC) on
    Military Justice,” May 8, 1996, formalizes the JSC and defines the roles, responsibilities and procedures
    for any changes to the Manual for Courts-Martial and the Uniform Code of Military Justice.



                                                        ii
Table of Contents

Executive Summary

Introduction
     Background                                                1
     Objectives                                                1

Finding
     Sufficiency of the Military Services Subpoena Authority    3

Appendixes
     A. Evaluation Process                                     12
          Scope and Methodology                                12
          Prior Coverage                                       12
     B. Report Distribution                                    13

Management Comments
     Department of Defense                                     15
     Department of Army                                        16
     Department of Navy                                        18
     Department of Air Force                                   23
Background
         This evaluation was performed to address two matters. The first was a
         recommendation made by the National Academy of Public Administration4
         (NAPA) in a June 1999 report entitled, Adapting Military Sex Crime
         Investigations to Changing Times. Chapter 2 of the NAPA report addresses
         “Investigative Authorities and Autonomy.” The report notes that the Military
         Criminal Investigative Organizations (MCIOs) lack direct subpoena authority and
         that there is a growing potential for use of subpoenas in investigations involving
         Internet computer crime (including pornography and child solicitation). The
         NAPA panel recommended that DoD consider providing approval authority to the
         Services’ General Counsels or to some other appropriate Service official. Second,
         an April 19, 1999, Air Force Office of Special Investigations memorandum to the
         Inspector General, DoD, recommended the establishment of subpoena authority
         for criminal investigations as an issue for the IG, DoD, Office of Criminal
         Investigative Policy and Oversight (CIPO) FY 2000 Project Plan.

         Inspector General Subpoena Authority. The authority of the IG, DoD, to issue
         subpoenas is derived from the Inspector General Act of 1978, as amended, 5
         U.S.C. app 3. The Act provides each statutory Inspector General broad duties and
         responsibilities. Pursuant to 5 U.S.C. app 3, § 2 (1), Inspectors General are
         empowered to conduct and supervise audits and investigations relating to the
         “programs and operations” of his or her agency. To properly perform these
         functions, Inspectors General are given subpoena authority to compel the
         production of documentary evidence. The Office of Criminal Investigative Policy
         and Oversight administers the OIG subpoena program for the MCIOs on behalf of
         the Inspector General.5 During FYs 1997, 1998, and 1999, CIPO received
         requests for 634 subpoenas involving 244 MCIO investigations. The
         overwhelming majority of these MCIO subpoena requests (95 percent) supported
         fraud investigations.

Objectives
         Our primary objective was to evaluate whether the Services’ limited authority to
         issue subpoenas adversely impacts their ability to conduct general crimes
         investigations. The evaluation focused on the effectiveness of the authorities and
         mechanisms available to (and used by) the MCIOs to obtain all types of
         evidentiary material during investigations. We also explored whether the




4
 The National Academy of Public Administration is an independent, nonpartisan, nonprofit organization
 comprised of former legislators, jurists, Federal and State executives and scholars that has been contracted
 to assist Government and private agencies and organizations in research and problemsolving. NAPA was
 granted a congressional charter in 1984.
5
 While CIPO’s principal mission is to develop policy for and to monitor and evaluate the performance of
 the DoD law enforcement community, CIPO also administers and manages the subpoena program for the
 MCIOs.



                                                      1
subpoena authority within the Office of the Inspector General was adequate to
support MCIO general crimes investigations. Appendix A discusses the
evaluation scope and methodology.




                                    2
                    Sufficiency of the Military Services
                    Subpoena Authority
                    Investigators in the Military Criminal Investigative Organizations
                    (MCIOs) conducting general crimes investigations sometimes experience
                    situations in which no mechanism is available to compel the production of
                    evidence. This condition exists because of the Services’ limited authority
                    to issue subpoenas when investigating general crimes. Consequently,
                    some investigations are incomplete, and some prosecutions may be
                    precluded.

Background
           MCIO criminal investigators must often collect physical evidence in support of
           their investigations of violations of the Uniform Code of Military Justice (UCMJ).
           The UCMJ is the statutory body establishing the military justice system
           (essentially criminal law) and is set out in Title 10 of the United States Code. The
           UCMJ is applicable at all times to all service members worldwide. In addition to
           and in concert with the UCMJ, the Manual for Courts-Martial (MCM)6 establishes
           the rules for courts-martial and the military rules of evidence; sets out the
           substance of the punitive articles including the maximum punishments; and
           prescribes the procedures for nonjudicial punishment. Neither the UCMJ nor the
           MCM provides authority to issue subpoenas to obtain evidence prior to “referral
           of charges”7 except in the case of a court of inquiry or deposition.

           UCMJ Process. In the military, any person subject to the UCMJ may “prefer” or
           bring charges against another service member.8 Prior to preferring charges
           against another service member, the complainant must have personal knowledge
           of the misconduct or must have investigated it. After preferral of charges and the
           conduct of post-preferral investigations if required (see e.g., Article 32, UCMJ),
           the appropriate court-martial convening authority may “refer” the charges to a
           specified level of court-martial. The referral assigns the case to a




6
    The Manual for Courts-Martial is promulgated under the President’s authority as commander-in-chief and
    as provided for in Article 36, UCMJ (10 U.S.C. §836).
7
 Referral is the order of a convening authority that charges against an accused will be tried by a specified
 court-martial. Referral of charges requires three elements: (1) a convening authority who is authorized to
 convene the court-martial and is not disqualified (see R.C.M. 601(b) and (c)); (2) preferred charges which
 have been received by the convening authority for disposition (see R.C.M. 307 as to preferral of charges
 and Chapter IV as to disposition); and (3) a court-martial convened by that convening authority or a
 predecessor (see R.C.M. 504).
8
    A service member who prefers charges must: (1) sign the charges and specifications under oath before a
    commissioned officer of the Armed Forces authorized to administer oaths; and (2) state that the signer has
    personal knowledge of or has investigated the matters set forth in the charges and specifications and that
    they are true in fact to the best of that person's knowledge and belief.



                                                       3
           specific court-martial convening order that designates the members of the court
           martial. The Military Judge, Trial Counsel, Trial Defense Counsel, and Court
           Members (the military equivalent of a civilian jury) are detailed to the court-
           martial in accordance with service regulations.

           Trial Subpoena. Article 46 of the UCMJ provides that, “The trial counsel, the
           defense counsel, and the court-martial shall have equal opportunity to obtain
           witnesses and other evidence in accordance with such regulations as the
           President may prescribe. Process issued in court-martial cases to compel
           witnesses to appear and testify and to compel the production of other evidence
           shall be similar to that which courts of the United States having criminal
           jurisdiction may lawfully issue and shall run to any part of the United States, or
           the Territories, Commonwealths, and possessions.” Rule 703(e)(2)(C), MCM,
           authorizes a summary court-martial or the trial counsel of a special or general
           court-martial to issue subpoenas to obtain civilian witnesses. A trial subpoena
           may also be used to command the person to whom it is directed to produce books,
           papers, documents or other objects designated therein (Rule 703(e)(2)(B)).
           However, subpoenas provided for by Rule 703 may not be used to compel a
           witness to appear at an examination or interview before a trial.9 Therefore,
           because trial subpoenas may only be issued by the summary court-martial or the
           trial counsel of a special or general court-martial, that is after the referral of
           charges, they are not available to investigators during the principal and formative
           part of their investigations.

           DoD Inspector General Subpoena Authority. Pursuant to the Inspector
           General Act of 1978, 5 U.S.C. app. 3, section 6(a)(4), Inspectors General covered
           by the statute are authorized “to require by subpena [sic] the production of all
           information, documents, reports, answers, records, accounts, papers, and other
           data and documentary evidence necessary in the performance of the functions
           assigned by this Act….” In terms of scope, an IG subpoena can compel
           production of documentary evidence such as books, records or other documents.
           However, these Inspector General subpoenas cannot be used to compel
           production of physical evidence that is non-documentary in nature (such as a
           murder weapon), nor can these subpoenas compel testimony.

           Pursuant to Section 4 of the Inspector General Act, the DoD Inspector General
           has the authority to conduct audits and investigations relating to the “programs
           and operations” of the DoD, and to prevent and detect potential waste, fraud and
           abuse within the Department. When attempting to determine whether a matter is
           within the authority of the Inspector General, it must be determined whether the
           Department has suffered a loss, or if it has been the victim of fraud, waste, or
           abuse relating to a “program or operation of the Department,” or whether the
           matter is within the interest of the Inspector General. If that is the case, the
           Inspector General may issue a subpoena. The Inspector General does not usually
           issue subpoenas in general crimes investigations unless the Department is the
           victim.

           Within these limitations it is clear that the IG subpoena authority is of little use to
           most investigations of general crimes specified in the UCMJ.


9
    They may, however, be used to obtain witnesses for a deposition or a court of inquiry.



                                                       4
Survey to Support Subpoena Sufficiency
         DoD Inspector General Survey Questionnaire. Based on the results of a survey
         we conducted, coupled with the subpoena limitations discussed above, we
         concluded that the subpoena authority within DoD in support of general crimes
         investigations, for offenses punishable under the UCMJ, is inadequate. We
         surveyed special agents of the MCIOs using a questionnaire posted on the World
         Wide Web. Overall, 70 percent of the MCIO special agent population responded
         to this survey.10 Responses from the MCIOs were as follows: U.S. Army
         Criminal Investigation Command (USACIDC) 75 percent; Naval Criminal
         Investigative Service (NCIS) 60 percent; and Air Force Office of Special
         Investigations (AFOSI) 73 percent. Investigative experience levels of the
         responding agents were as follows: less than 1 year, 10 percent; more than 1 but
         less than 3 years, 17 percent; more than 3 but less than 5 years, 11 percent; more
         than 5 but less than 7 years, 9 percent; and 7 years or more, 52 percent. Agents
         were asked to identify the largest single category of investigations they conducted
         during the 3 years immediately preceding the survey. A total of 61 percent of the
         respondents indicated general crimes investigations as their largest single
         category of investigation. Figure 1 shows the breakdown of the responses from
         the MCIOs on category of investigation conducted during the past 3 years.

              Figure 1. Largest Category of Investigation Worked for Past 3 Years


                 100%

                  80%
                                  511                              287        1228
                  60%                              430

                  40%              93                               77        287
                  20%             233                              122        355
                                                   117
                    0%             80               44              29        153

                                AFOSI           USACIDC            NCIS       Total
                                    Not*       Other**     Fraud    General

         * Not involved in conducting investigations
         ** Other (counterintelligence/counterespionage)

Mechanisms Used to Support General Crimes Investigations
         Adequacy of Existing Mechanisms Used to Compel Evidence. According to
         survey results, MCIO agents experience instances where no adequate mechanism
         is available to compel the production of evidence needed to complete their

10
  This survey targeted 2,906 special agents.



                                                   5
        investigations. In the context of general crimes cases, we asked agents to rate the
        effectiveness11 of the following mechanisms to compel evidence: (1) Grand Jury
        Subpoena; (2) Military Search Authorization; (3) Federal Subpoena Duces
        Tecum; (4) Military Trial Subpoena; and (5) DoD Inspector General Subpoena.
        We also asked agents to list any other mechanisms used and to rate the
        effectiveness of these mechanisms. Agents rated the “military search
        authorization,” “search warrants” (local, state, federal), and “consent” as the most
        frequently used and most highly effective mechanisms in supporting general
        crimes investigations. We also asked agents, “Have you personally conducted a
        general crimes investigation for an offense punishable under the UCMJ, where
        you needed to obtain evidence to support your investigation, but felt you could
        not use any mechanism to compel the production thereof?” The response choices
        available were “often,” “seldom,” and “never.” Of the 2,023 agents who
        responded, 409 (20 percent) indicated that they “often” or “seldom” encountered
        instances where they felt unable to use any mechanism to compel the production
        of evidence. Figure 2 shows a breakout by MCIO of agents reporting the lack of
        a mechanism to compel production of evidence.

        Figure 2. Agent Responses to a Lack of a Mechanisms to Compel Production
                                        of Evidence

                100%               38                    34                                  143
                                   92                                     71
                                                      77                                     266
                  80%
                                                                          97
                  60%

                  40%             783                 479                                   1606
                                                                         344
                  20%

                   0%
                                AFOSI            USACIDC                NCIS                Total

                                                  Never       Seldom        Often

        In addition, agents identified: (1) the types of case investigated, (2) evidence
        desired, and (3) why they felt they could not use some type of mechanism to
        compel the production of the evidence they desired. Of the responses, 341 agents
        provided detailed followup responses, of which 260 answers met the
        aforementioned parameters. The agents listed larceny, drugs, homicide or
        unattended death, and child maltreatment/mistreatment investigations as the
        predominant case types in which they needed to obtain evidence but in which they
        lacked a mechanism for doing so. Types of evidence included bank, telephone,
        financial, and medical records. Contributing factors provided by the agents

11
  For purposes of this evaluation, effectiveness was defined as: use of the mechanism resulted in obtaining
 the evidence/information desired, without unreasonable delays, complications, or limits placed on use of
 the evidence/information obtained. Agents rated mechanisms as highly effective, effective, somewhat
 effective or not effective.



                                                     6
        included: no subpoena authority; DoD Inspector General subpoena unavailable,
        unwarranted, or too difficult to obtain; jurisdictional constraints, i.e., local law
        enforcement and judicial authorities declined to assist MCIO investigators since
        the crime was military in nature; lack of U.S. Attorney interest due to dollar
        threshold; and exclusive federal jurisdiction precluded use of state subpoena.

        Adequacy of DoD Inspector General Subpoena. MCIO investigators use DoD
        Inspector General subpoenas to obtain records primarily in fraud cases. Our
        survey revealed that 460 of the 2,023 respondents (23 percent) have requested
        DoD Inspector General subpoenas. Subpoenas requested consisted of 313 (69
        percent) for fraud cases, 65 (14 percent) for general crimes investigations, and 77
        (17 percent) for investigations which involved both fraud and general crimes
        offenses. As discussed previously, the DoD Inspector General does not generally
        grant requests for IG subpoenas to support general crimes investigations that do
        not meet specific criteria, and the type of evidence that IG subpoenas can obtain is
        also limited.

Judge Advocate General’s Corps Perspective
        Judge Advocate General’s Corps Survey. Because MCIO agents identified a
        potential gap in suitable mechanisms to obtain physical evidence, particularly in
        adequate subpoena authority, and the potential significance to outcomes of their
        investigations, we believed it would be beneficial to obtain the perspective of the
        Services’ Judge Advocate General’s Corps (JAGC) members. Specifically, we
        targeted judge advocates (JAs) with current or prior military justice experience.
        We wanted to determine the extent, if any, in which limited subpoena authority
        affected their ability to successfully prosecute cases.

        We requested and received support from the Judge Advocates General of the
        Military Departments and the Staff Judge Advocate to the Commandant, U.S.
        Marine Corps, to conduct a survey. During September 2000, we posted a survey
        questionnaire on the World Wide Web addressed to JAs with military justice
        experience either as Trial Counsel (including Senior Trial Counsel, Chief of
        Military Justice, or equivalent positions), Military Judge, Staff Judge Advocate
        (SJA), or Deputy SJA. Services-wide, 753 JAGC personnel participated in the
        survey.12 Of the total, 239 respondents had more than 7 years of military justice
        experience; 105 had more than 5 but less than 7 years; 142 had more than 3 but
        less than 5, and 181 had more than 1 but less than 3 years experience. Further, 83
        respondents indicated having less than 1 year of military justice experience (3
        respondents did not provide a response to level of military justice experience).

        Results of JAGC Survey. The results of the survey support the finding that in
        some instances investigators lack a mechanism to compel the production of
        evidence when investigating offenses punishable under the UCMJ. Of the 753
        survey respondents, 500 (66 percent ) answered “yes” when asked, “As a Trial
        Counsel, have you ever needed evidence prior to referral of charges to support an
        investigation of a crime cognizable under the UCMJ, but concluded no
        mechanism was available to compel its production?” Further, of the 500
        respondents who answered “yes,” 408 felt that the ability to issue or obtain a
12
 Although 753 is not representative of the approximately 3,940 JAGC population, the data provided
 clearly assisted us in supporting the finding and also provided examples to validate our MCIO survey.



                                                    7
military trial subpoena prior to referral of charges would have benefited their case
or resulted in a referral of charges.

In addition, when asked if they had ever been involved with a general crimes
investigation cognizable under the UCMJ where they could not successfully
prosecute the case because they could not compel the production of certain
evidence, 309 (41 percent) of the 753 respondents answered “often” (42
respondents) or “seldom” (267 respondents). Of the total, 342 answered “never.”
Of the remaining respondents, 97 selected “not applicable,” and five left the
answer blank. Figure 3 shows the breakdown of responses where respondents felt
they could not successfully prosecute a case because of the lack of a mechanism
to compel evidence.
  Figure 3. Respondents Involved in Investigations Not Prosecuted Due To
                Lack of a Mechanism to Compel Evidence


      100%          25             13                                    42

        80%                                     56         21
                    121            69                                   267
        60%
                                                74
        40%                                                24
                                   95                                   342
                    149
        20%
                                                56         11
                    15             15                                    97
         0%
                 Air Force        Army         Navy       USMC          Total

                          Blank     NA       Never    Seldom    Often
We also asked respondents, “As a Trial Counsel have you ever been involved
with the investigation of a general crime prosecutable under the UCMJ, where
prior to the referral of charges, you advised investigators to obtain evidence by
requesting the intervention of appropriate local, state, or federal law enforcement
or judicial authorities (e.g., using their own subpoenas)?” Our purpose in asking
the question was to determine if obtaining assistance from the local law
enforcement or judicial community is a feasible substitute for adequate subpoena
authority within the Services. Of the total respondents, 131 answered “often,”
and 278 selected “seldom.” The remaining respondents chose, “never,” “not
applicable,” or left the answer blank. For respondents who answered “often,” or
“seldom,” we asked if those authorities declined to assist. The responses
included: Often, 67; Seldom, 149; and Never, 197. Detailed followup answers
provided by those respondents who selected “often,” or “seldom,” cited priorities
established by the local law enforcement community, i.e., manpower and
resources, and jurisdictional constraints that precluded their support in
investigating offenses involving service members.

Use of Rule 703 Trial Counsel Subpoena. Of the 753 respondents, 262 had
never issued a Rule 703 trial subpoena. When asked “As a Trial Counsel, in how

                                         8
        many separate UCMJ prosecutions have you used a Rule 703 trial subpoena to
        compel the production of non-testimonial evidence, irrespective of the number of
        individual subpoenas?” the respondents identified 490 instances where they
        issued one or more subpoenas. The types of evidence and cases listed by the
        respondents were similar to those listed by the MCIO survey respondents.
        Records included bank records, business records, financial records, medical
        records, phone records, and Internet records. Types of cases included drugs,
        larceny, sexual assault/rape, child maltreatment or mistreatment, computer crimes,
        and murder/manslaughter. In addition, 696 of 753 respondents believed that the
        availability of military subpoena authority similar to that outlined in Rule 703,
        MCM, but available prior to referral of charges, would enhance the military
        justice system.

        Our analysis of the JAGC survey also identified 44 of the 753 respondents were
        currently in trial defense counsel positions. Of that number, 37 believed subpoena
        authority similar to that outlined in Rule 703, MCM, should be available prior to
        referral of charges.

National Academy of Public Administration Finding on
  Subpoena Sufficiency within the DoD
        Background. The NAPA report,13 Adapting Military Sex Crime Investigations to
        Changing Times, June 1999, notes that the MCIOs lack direct subpoena authority.
        NAPA reported that there is a growing potential for the productive use of
        subpoenas in investigations of Internet computer crime, including pornography
        and child solicitation. The panel felt that subpoena authority would be useful for
        MCIOs in their investigations and recommended that DoD consider providing
        approval authority to the Services’ General Counsels or another appropriate
        Service official. On January 24, 2000, the Deputy Secretary of Defense issued a
        memorandum to the Inspector General, Department of Defense, requesting,
        among other taskings, that the Inspector General evaluate this issue.

        Delegation of Inspector General Subpoena Authority. The Inspector General
        Act of 1978 authorizes the Inspector General “to require by subpena [sic] the
        production of all information . . . .necessary in the performance of functions
        assigned by this Act.” There is no provision in the Act that states that this
        subpoena authority may be delegated outside the Office of the Inspector General
        or used for purposes outside the scope of the Act.
        Determination of Subpoena Authority within the DoD. Our surveys of the
        MCIO investigations and the Services’ JAs demonstrate the need for additional
        subpoena authority for investigations of UCMJ offenses. In our survey addressed
        to the Services’ JAs, we asked, “If a new military investigative subpoena
        authority were added to the UCMJ, who should issue/approve the subpoena?” Of
        the 753 responses, 226 selected “Military Magistrate” and 202 selected “Trial
        Counsel.” In our discussions with the Services’ JAGC personnel and members of


13
 Section 1072 of the National Defense Authorization Act for Fiscal Year 1998 tasked NAPA to conduct a
 study of MCIO policies and procedures in sex crimes investigations. In May 1998, DoD contracted with
 NAPA, which studied a variety of investigative issues including subpoena sufficiency.



                                                  9
        the Joint Service Committee (JSC) on Military Justice14 it was noted that it is
        DoD policy to review the Manual for Courts-Martial annually, and to propose any
        legislative amendments to the UCMJ. The JSC, under the direction of the
        General Counsel, DoD, is responsible for reviewing the Manual for Courts-
        Martial and proposing any legislative amendments to the UCMJ to the General
        Counsel, DoD. Although NAPA recommended that DoD consider providing
        approval authority to the Services’ General Counsels or another appropriate
        Service official, the proper managing of such an issue is the responsibility of the
        DoD General Counsel. DoD Directive 5500.1, “Preparation and Processing of
        Legislation, Executive Orders, Proclamations, and Reports and Comments
        Thereon,” May 21, 1964, designates the DoD General Counsel responsibility for
        all matters concerning or relating to legislation, Executive Orders, and
        Proclamations.

Summary
        As part of the overall military judicial process, investigations are being conducted
        where there is a need to obtain evidence to support the elements of proof for
        violations of the UCMJ well prior to referral of charges. We believe our surveys
        of the MCIO investigators and the Services’ JAs are consistent in identifying the
        need for additional subpoena authority within the military judicial process.
        Subpoena availability in military cases arises from two sources, each of which has
        significant limitations: trial subpoenas and Inspector General, DoD, subpoenas.
        Trial subpoenas are not available to investigators during the main portion of their
        investigation and are therefore of essentially no benefit to criminal investigators.
        Although the DoD Inspector General subpoena is effectively used for fraud
        investigations, its use in general crimes investigations is extremely limited. That
        being the case, criminal investigators are often left with no means for compelling
        the production of evidence before a suspect is referred for court-martial.

Recommendation and Management Comments
        We recommend that the General Counsel, DoD, under the authority of DoD
        Directive 5500.1, “Preparation and Processing of Legislation, Executive
        Orders, Proclamation, and Reports and Comments Thereon,” May 21, 1964,
        initiate or direct action to establish additional subpoena authority within the
        military justice system as supported by this evaluation.
        DoD General Counsel Comments. The DoD General Counsel concurred in the
        recommendation stating that any expanded subpoena powers should first be
        formally reviewed by the Joint Service Committee on Military Justice (JSC),
        pursuant to DoD Directive 5500.17, “Role and Responsibilities of the Joint
        Service Committee (JSC) on Military Justice,” May 8, 1996.

        Army Comments. The Army Office of The Judge Advocate General concurred
        in both the finding and the recommendation. The Army recommended a slight

14
 The JSC on Military Justice consists of representatives of the Judge Advocates General of the Military
 Departments, the Staff Judge Advocate to the Commandant of the Marine Corps, and the Chief Counsel,
 United States Coast Guard.



                                                  10
revision on page 3, in the last sentence of the introductory “Background.” The
sentence read that “Neither the UCMJ nor the MCM provides authority to issue
subpoenas to obtain evidence prior to “referral of charges.” The Army pointed
out that R.C.M. 703(e)(2)(C) authorizes the president of a court of inquiry or an
officer detailed to take a deposition to secure witnesses or evidence by subpoena.
Both courts of inquiry and depositions may take place prior to referral. As such,
the Army recommended we amend the sentence to read, “Neither the UCMJ nor
the MCM provides authority to issue subpoenas to obtain evidence prior to
“referral of charges” except in the case of a court of inquiry or deposition.”
Comments were also received from the U.S. Army Criminal Investigation
Command who offered no objections to the report as written.

Navy Comments. The Navy Office of The Judge Advocate General concurred
with the recommendation commenting that the General Counsel initiate action
pursuant to DoD Directive 5500.17 to establish additional subpoena authority.
The Naval Criminal Investigative Service also commented and concurred with the
recommendation. NCIS stated that extending subpoena authority vice creating
trial counsel or military magistrate subpoena authority for general criminal
investigations is more prudent since the IG, DoD, currently provides
administrative subpoenas in fraud cases. This extension would be a logical
consolidation that would enable the continuation of one central clearing location
of records and statistics and of one DoD entity that consistently applies the law.
The Staff Judge Advocate to the Commandant of the Marine Corps also
commented and concurred with the finding and recommendation. The Marine
Corps provided two comments. The first reiterated the Army TJAG suggestion
for revision to the last sentence of the “Background” paragraph. The second
comment recommended we correct the last sentence on page 3 under “UCMJ
Process.” The Marine Corps point out that “referral” is itself the act that sends
charges before a previously convened court-martial, and no subsequent
assignment of charges occurs. The convening order designates only the members
of the court-martial; it does not designate the Military Judge, the Defense
Counsel, or the Trial Counsel.
Air Force Comments. The Air Force Judge Advocate General concurred in the
stated findings and conclusions of the evaluation report. The Judge Advocate
General stated that implementation of expanded subpoena authority is best left to
the Joint Service Committee on Military Justice. The Air Force Office of
Inspector General also commented and concurred with the report’s finding and
recommendation.

Evaluation Response. We consider management comments to be fully
responsive and have incorporated suggested changes by the Army and Marine
Corps for clarification purposes.




                                    11
Appendix A. Evaluation Process

Scope and Methodology
    Work Performed. We performed this evaluation from January through
    September 2000. The review focused on the sufficiency of subpoena authority
    within DoD in support of general crimes investigations of offenses cognizable
    under the UCMJ. We conducted interviews and held discussions with program
    managers and staff members at the headquarters of the MCIOs, the Services’
    Offices of The Judge Advocates General, and the Staff Judge Advocate to the
    Commandant, U.S. Marine Corps. To accomplish our objectives, we conducted
    two surveys. We addressed the first survey to all agents of the MCIOs. We
    wanted to determine the mechanisms used by the MCIOs to obtain documents or
    other evidentiary material during general crimes investigations, their
    effectiveness, and their experience with subpoenas that did or would have
    substantially contributed to the successful completion of an investigation. We
    also used the survey questionnaire to identify any policy or procedural
    deficiencies in using or obtaining a DoD Inspector General subpoena in support of
    general crimes investigations. We determined, based upon our review and
    analysis of the agents’ responses, that a significant number of respondents
    perceive the existence of a lack of an effective mechanism to obtain evidence
    prior to charges being referred. As a result of this survey, we developed a second
    survey addressed to the Services’ Judge Advocate General’s Corps members with
    prosecution experience to obtain their perspective on the issue. Finally, we
    requested a policy clarification from the DoD Deputy General Counsel, Inspector
    General, on the issuance of DoD Inspector General subpoenas in support of
    general crimes investigations.

    Limitations to Evaluation Scope. The evaluation was limited to assessing the
    sufficiency of subpoena authority within DoD in support of general crimes
    investigations of offenses cognizable under the Uniform Code of Military Justice.
    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.

Prior Coverage
    National Academy of Public Administration Report, Adapting Military Sex Crime
    Investigations to Changing Times, June 1999




                                        12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Personnel and Readiness
General Counsel, Department of Defense
Deputy General Counsel (Inspector General)
Director, Defense Criminal Investigative Service

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
General Counsel, Department of the Army
Inspector General, Department of the Army
Auditor General, Department of the Army
Deputy Chief of Staff for Operations and Plans
Judge Advocate General, Department of the Army
Commander, U.S. Army Criminal Investigation Command

Department of the Navy
General Counsel, Department of the Navy
Director, Naval Criminal Investigative Service
Inspector General, Department of the Navy
Judge Advocate General, Department of the Navy
Staff Judge Advocate to the Commandant, Headquarters, U.S. Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
General Counsel, Department of the Air Force
Inspector General, Department of the Air Force
Judge Advocate General, Department of the Air Force
   Commander, Air Force Legal Services Agency
Commander, Air Force Office of Special Investigations




Other Defense Organizations
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                          14
     Department of Defense Comments




15
Department of Army Comments




                          16
     Department of Army Comments




17
Department of Navy Comments




                              18
     Department of Navy Comments




19
     Department of Navy Comments




21
Department of Navy Comments




                              22
     Department of Air Force Comments




23
Department of Air Force Comments




                            24
Evaluation Team Members
   The Office of the Deputy Assistant Inspector General for Criminal Investigative
   Policy and Oversight, Office of the Assistant Inspector General for Investigations,
   DoD, prepared this report. Personnel of the Office of the Inspector General, DoD
   who contributed to the report are listed below.


   Phyllis M. Brown


   SA Scott Russell


   John Auman
